LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

September 29, 2020

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-968:

5614 Connecticut Avenue, NW #307
Washington, DC 20015

CHIKE UZUEGBUNAM, ET AL. V. STANLEY C. PRECZEWSKI, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Institute for
Free Speech on September 29, 2020, I caused service to be made pursuant to Rule 29 on
the following counsel for the Petitioners and Respondents:
PETITIONERS:
John J. Bursch
Alliance Defending Freedom
440 First Street, NW
Suite 600
Washington, DC 20001
616-450-4235
jbursch@adflegal.org

RESPONDENTS:
Andrew Alan Pinson
Office of the Georgia Attorney General
40 Capital Square SW
Atlanta, GA 30334-1300
404-651-9453
apinson@law.ga.gov

This service was effected by depositing three copies of the Brief of Amicus Curiae
Institute for Free Speech in an official “first class mail” receptacle of the United States
Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 29th day of September 2020.

